OIG Investigative Reports, Silver Spring Man Sentenced to 175 Months in Prison in Connection with Scheme to Steal Approximately $900,000 Dollars in Grant Money
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
Kenneth L. Wainstein
United States Attorney for the
District of Columbia
Judiciary Center
555 4th Street, N.W.
Washington, D.C.  20530
PRESS RELEASE
FOR IMMEDIATE RELEASE
Monday, August 16, 2004
For Information Contact Public Affairs
Channing Phillips     (202)514-6933
Silver Spring Man Sentenced to 175 Months in Prison in Connection with Scheme to Steal Approximately $900,000 Dollars in Grant Money Intended for a Public School District in South Dakota
Washington, D.C. - United States Attorney Kenneth L. Wainstein, Michael A. Mason, Assistant Director in Charge of the FBI's Washington Field Office, and Jack P. Higgins, Jr., Inspector General for the United States Department of Education, jointly announced that John Brugada Holmes, a 36-year-old resident of Silver Spring, Maryland, was sentenced today to a prison term of 175 months by United States District Judge Reggie B. Walton. Holmes was also ordered to pay $201,513.11 in restitution to the United States Department of Education. Holmes was convicted by a federal jury in February 2004 for conspiracy to receive stolen government property, conspiracy to commit money laundering, and false use of a social security number, in connection with the diversion of approximately $925,073.43 from the Department of Education (DOE).
Other defendants who have been sentenced in this case include Stateson Clarence Francois, a 29-year-old resident of Mt. Airy, Maryland, who in June 2004 was given a prison term of 41 months and ordered to pay $63,315.51 in restitution to DOE. Francois pled guilty in January 2004 to conspiracy to receive stolen government property, conspiracy to commit money laundering, and false use of a social security number, in connection with the diversion of approximately $925,073.43 from DOE. Daniel Dorcely, a 31-year-old resident of Beltsville Maryland, was also sentenced in June 2004 to a prison term of 24 months and ordered to pay $63,315.51 in restitution to DOE. Dorcely was convicted by a federal jury in February 2004 for false statements to the FBI in connection with the investigation of the diversion of the money from DOE.
According to the facts presented at the trial and plea hearing, Holmes and Francois conspired to receive stolen government funds under DOE's Impact Aid program which were intended by DOE to aid school districts whose tax base was depleted by the presence of non-taxable sources such as military bases or Indian reservations. In March 2000, Holmes and Francois caused the stolen government funds to be deposited into the business banking account of Dany Enterprises, which was owned by Dorcely. Prior to the deposit of the stolen government funds, Dorcely added Francois to his business banking account under a false name. Thereafter, Holmes and Francois used false social security numbers on driver's licenses to purchase two expensive sports utility vehicles, and an attempted purchase of a Corvette. In the course of the ensuing investigation by law enforcement, Dorcely lied to the FBI about the identity of Francois.
At the time of the diversion of the DOE funds to Dany Enterprises, Holmes was also alleged to have been involved in a second diversion of $995,136.17 of Impact Aid funds from DOE to a banking account of Children's Cottage in Maryland. The account was owned by Beberly Cobham and the diversion was done with the assistance of Roger Bowen. Both Cobham and Bowen previously pled guilty in that diversion and cooperated with the government in the trial of Holmes, but the jury was not able to reach a verdict as to Holmes's actions relative to this second diversion of DOE funds. Cobham and Bowen were sentenced in June of this year by Judge Walton. Cobham was given five years of probation, while Bowen was sentenced to four months of imprisonment, followed by four months of home confinement, and both were jointly and severally liable for restitution in the amount of $147,397.76.
In announcing these sentences, U.S. Attorney Wainstein, Assistant Director Mason, and Inspector General Higgins commended the work of FBI Special Agents Thomas Chadwick and Debra LaPrevotte, and Special Agents George Baxavaneos and Gary Mitchell of the Department of Education Office of the Inspector General. They also praised Paralegal Specialist Paula Pagano, litigation support specialist Debbie Dunn, and Legal Assistants Shavonne Jennings-Rush and Teesha Tobias. Finally, they acknowledged the excellent work of Assistant United States Attorneys Patrick Rowan and Howard Sklamberg, who handled this matter initially, and Assistant United States Attorneys Jonathan Rosen and Daniel Butler, who prosecuted the case through trial and the sentencings.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov